                           SOCIAL SECURITY
                                                                       Inspector General
                                   January 24, 2003

Mr. Thomas J. Oscherwitz
Counsel, Subcommittee on Technology,
 Terrorism and Government Information
Senate Judiciary Committee
815 Hart Building
Washington, D.C. 20510

Dear Mr. Oscherwitz:

In response to your December 10, 2002 request, I am pleased to provide the
information you requested related to the Social Security Administration’s (SSA)
processing of death reports and implementation of prior recommendations to
improve its Death Master File.

The enclosed report contains information related to:

   ·   Number and source of death reports processed by SSA;
   ·   Timeliness of death information received by SSA;
   ·   Overview of death termination process;
   ·   Number of fraud cases involving improper payments to deceased individuals;
   ·   Status of recommendations from our September 2002 audit, Effectiveness of
       SSA’s Death Termination Process (A-09-02-22023); and
   ·   Prior recommendations to improve SSA’s Death Master File and corrective
       actions taken by the Agency.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                            Sincerely,



                                            Steven L. Schaeffer
                                            Assistant Inspector General
                                             for Audit

Enclosure

cc:
James G. Huse, Jr., Inspector General
Larry Dye, Chief of Staff
Larry Love, Counselor to the Commissioner
Dale Sopper, Acting Deputy Commissioner for Finance Assessment and Management

            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT

The Social Security Administration’s
  Efforts to Process Death Reports
 and Improve its Death Master File
             A-09-03-23067




            JANUARY 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                             Background
The Social Security Administration (SSA) receives reports of death from a variety of
sources, including friends and relatives of deceased individuals, funeral homes, postal
authorities, financial institutions, and Federal and State agencies. Upon receipt of a
death report, field offices (FO) and processing centers (PC) enter the information into
SSA’s automated systems. For all individuals, the death information is recorded on the
Numident, a master file that contains personal identifying data about each individual
who has been issued a Social Security number (SSN). For individuals currently
receiving benefits, the death information is also recorded on the Master Beneficiary
Record (MBR) and Supplemental Security Record (SSR), the master files that contain
payment data about each individual who has received Social Security benefits.

To identify erroneous payments to deceased individuals, SSA’s Death Alert, Control,
and Update System (DACUS) performs computer matches with death data received
from external and internal sources. The external sources include Federal agencies,
such as the Veterans Administration and the Centers for Medicare and Medicaid
Services (CMS), and State agencies, such as bureaus of vital statistics (BVS) and
social services agencies. The internal sources include SSA’s system of records, such
as the MBR, SSR, and Numident. DACUS also produces a national file of death
information, called the Death Master File (DMF).

DACUS processes the death reports and compares the date of death to SSA’s payment
records, including the MBR and SSR. If there is no conflicting information, DACUS
records the death on the Numident. If payments have been made after death or there is
conflicting information about the date of death, DACUS generates an alert to the FO.
DACUS also generates a follow-up alert every 30 days until the initial alert has been
resolved.

In September 1999, SSA contracted with the National Association for Public Health
Statistics and Information Systems (NAPHSIS), an association of State vital records
directors and registrars, to develop standards and guidelines for a proposed nationwide
system of electronic death registration (EDR). The goal of this system, when fully
implemented, is for SSA to receive death reports within 5 days of death and 24 hours
of receipt in the State BVS. Under EDR, SSA will verify the SSN with the State BVS at
the beginning of the death registration process, thereby allowing the Agency to take
immediate termination action without independently verifying the accuracy of the report.
EDR is now part of SSA’s E-Vital initiative, which will automate the current paper-bound
processes to collect and disseminate vital records information.

The facts and conclusions presented in this report are based on prior audit and
investigative work, published reports and studies, and interviews with SSA employees.
We performed our review during December 2002 in Richmond, California.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)           1
                                                  Results of Review
On December 10, 2002, Senator Dianne Feinstein’s and Congressman Luis Gutierrez’s
staff requested that the Office of the Inspector General (OIG) provide information about
SSA’s processing of death reports and implementation of prior recommendations to
improve its DMF. Specifically, the following information was requested:

    ·   Number and source of death reports processed by SSA;
    ·   Timeliness of death information received by SSA;
    ·   Overview of death termination process;
    ·   Number of fraud cases involving improper payments to deceased individuals;
    ·   Status of recommendations from our September 2002 audit, Effectiveness of
        SSA’s Death Termination Process (A-09-02-22023); and
    ·   Status of prior recommendations to improve the DMF and corrective actions
        taken by the Agency.

NUMBER AND SOURCE OF DEATH REPORTS PROCESSED BY SSA
About 2.3 million people die in the United States each year, including 2.0 million SSA
beneficiaries.1 Most deaths are reported to SSA by relatives, friends, and funeral
homes. In fact, SSA estimates that these reports from first parties account for about
90 percent (2.07 million) of the death reports received.2 Postal authorities and financial
institutions report another 5 percent (115,000). SSA relies on computer matches with
other Federal and State agencies to identify the remaining (unreported) deaths. The
chart on the following page illustrates the estimated number of death reports by source.




1
 U.S. Department of Health and Human Services, Centers for Disease Control and Prevention, National
Center for Health Statistics, National Vital Statistics Report, volume 49, number 8, and Annual Statistical
Supplement, 2000 to the Social Security Bulletin, table 6.F2.
2
  SSA does not capture information concerning first-party death reports. However, these estimates were
included in a SSA report, Process Innovation Review - Death Process Review, January 1997.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                             2
                          Number of Death Reports by Source
    Friends, Relatives,
    and Funeral Homes
      2,070,000 (90%)




                                  Postal        Financial       Federal and
                                Authorities    Institutions    State Agencies
                                92,000 (4%)    23,000 (1%)      115,000 (5%)




TIMELINESS OF DEATH INFORMATION RECEIVED BY SSA
Generally, death reports from first parties (relatives, friends, and funeral homes) are
received timely and are considered by SSA to be very reliable. However, since not all
deaths are reported by first parties, SSA must rely on computer matches with Federal
and State agencies to identify unreported deaths. Each State periodically sends tapes
or electronic file transfers to SSA with information on all reported deaths within the
State. SSA matches this information with its payment records and generates a death
alert if it receives a death report for a beneficiary whose death had not been previously
reported (by a first-party source) or if there is discrepant death information on the
payment record.

In a previous OIG audit,3 we obtained a database containing 65,809 initial death alerts
for Old-Age, Survivors and Disability Insurance beneficiaries generated from July to
December 1999. Our analysis of these alerts disclosed that SSA received death reports
from Federal and State agencies within 30 days of death in 36.6 percent of the cases.
The chart on the following page illustrates the delays in receiving death reports from
external sources based on these alerts.




3
 Effectiveness of the Social Security Administration’s Death Termination Process (A-09-02-22023),
September 2001.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                          3
                                         Delays in Receiving Death Alerts
                                                    July to December 1999

                         25,000


                         20,000
      Number of Alerts




                         15,000


                         10,000


                          5,000


                             0
                                  0-15    16-30   31-45   46-60   61-90   91-120   121-150   151-180 Over 180

                                                            Number of Days



Additional analysis of the 65,809 alerts revealed that the average elapsed days between
the date of death and the day the information was reported to SSA by State agencies
was 71 days.4 This contrasted with the 40 days it took CMS to report deaths to SSA.
The delay in receiving death information from States can be attributed to the fact that
the current death registration process remains labor intensive, relies on disparate and
limited automated procedures, and requires data input at different locations to complete
each of the more than 2.3 million death certificates registered each year. Another
cause for delays is that often State agencies must consolidate death data received from
such local jurisdictions as counties before reporting statewide information to SSA. The
following chart shows the average length of time required for various external sources
to provide death reports to SSA. Again, the chart is based on our analysis of initial
DACUS alerts issued during a 6-month period because SSA does not capture this data
on the MBR or SSR master files.




4
    This analysis is based on a population of 65,809 death records that resulted in DACUS alerts.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                      4
                       Average Length of Time to Receive Death Alerts
                                      July to December 1999


                       300

                       250
      Number of Days




                       200
                                                                           252
                       150
                                                      71
                       100
                                 40
                        50

                         0
                               CMS                BVS                   Bendex5




Although the average number of elapsed days from the date of death to the day until it
was reported to SSA for all BVSs was 71 days, we noted a significant disparity among
the BVS entities, Centers for Medicare and Medicaid Services (CMS), Bureau of Vital
Statistics (BVS), and Beneficiary and Earnings Data Exchange (Bendex). For example,
we determined that only 4 BVS entities reported deaths within 30 days, while the
average for 6 other States exceeded 200 days. The chart below highlights the
differences between the worst and best performing BVS organizations.6 For data on
all of the BVSs, see Appendix B.




5
  These death alerts originated from State welfare agencies and the average is based on 333 alerts in
our population.
6
    The State of Illinois was excluded from the graph because our database included only four records from
Illinois and those may not be representative.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                            5
                      Average Length of Time to Report Death Information
                                             July to December 1999

                      300


                      250
     Number of Days




                      200


                      150
                             GA    NY     CA      PA
                      100
                                                              NYC     NH      KS       WV
                       50


                       0
                              Worst Performing BVSs             Best Performing BVSs




OVERVIEW OF DEATH TERMINATION PROCESS
SSA stores death information on the Numident, a master file that provides personal
identifying information for each individual who has been issued a SSN. This information
consists of the individual’s full name, SSN, and date of birth. Generally, the place of
birth and parents’ full names are also included. The Numident is updated daily based
on death reports received by SSA. However, we noted two vulnerabilities in this
process. First, the Numident record for a deceased individual is not updated if such key
data as name or SSN from the death report does not match the Numident record.
Second, SSA uses unverified death reports to record deaths on the Numident records
for nonbeneficiaries.

Also, the completeness of the information on the DMF is not consistent. An academic
research study concluded that the file's completeness varies significantly based on the
age of the decedents. The results were that death reporting for individuals age 65 or
older was over 95 percent complete. However, the DMF contained only 42 percent of
deaths for deceased individuals under age 25 and 74 percent for those age 25 to 54.7

SSA extracts information from the Numident and creates a DMF each quarter. As of
February 2002, SSA created a DMF on a weekly and quarterly basis. The DMF is
provided to third-party users via computer tapes. Each month, SSA provides a
7
 Social Security Bulletin, The Social Security Administration's Death Master File: The Completeness of
Death Reporting at Older Ages, Vol. 64, No. 1, 2001/2002.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                         6
supplemental tape containing newly recorded deaths and any changes or deletions to
the file.

The DMF is distributed to 10 Federal agencies, including 4 that pay Federal benefits.
The agencies use the file to identify deceased individuals who are receiving benefits. In
addition, the DMF is released to the National Technical Information Service, which
responds to requests under the Freedom of Information Act. To limit its liability for
erroneous information on the DMF, SSA places the following disclaimer on the file:
“ATTENTION ALL USERS: Many of the items in this file have not been verified. You
should not conclude that a person listed in this file is necessarily deceased. This
person may still be alive . . . Please verify every record before taking action on it . . . .”

DACUS processes death information and performs computer matches with other
Federal and State agencies. DACUS receives the death reports and compares them to
SSA’s payment files. If the comparison indicates that payments have been made after
death or there is conflicting information about the date of death, DACUS issues an alert
to the FO. The FO then determines the validity of the information and takes action, as
appropriate, to terminate payments, recover improper payments issued after beneficiary
deaths, and correct SSA’s records. If there is no conflicting information, DACUS
records the death information on the Numident. The following flowchart provides an
overview of DACUS.


                 PROCESSING OF DEATH INFORMATION THROUGH
              DEATH ALERT, CONTROL, AND UPDATE SYSTEM (DACUS)



                                                           Compare Death
                                      DACUS
                                                           Reports to Payment
    Death Reports                                          Files to Determine
    Submitted to SSA                                       Beneficiary Status
                                                                                                                            Stop

                                                                                       Input Death Data
                                                                                       Into Payment Files
                                                                                                                        Delete
                                                                                                                        Alert
                                Obtain Daily Death         SSA’s Payment Files
                                Terminations from          - Title II
                                Payment Files and                                            No                               Yes
                                                           - Title XVI
                                Input Data Into
                                DACUS to Clear                                                          Individual
                                Death Reports                                                           Still Alive?




                                                     No   Current Beneficiary,        Yes
                       Record Date of Death
       Stop                                               Former Beneficiary, or                  Generate a Death Alert
                       on Numident
                                                          Discrepant Date of Death?               and Forward to Field
                                                                                                  Office for Verification




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                          7
A more detailed diagram of SSA's death matching process is included as Appendix C to
this report.

FRAUD CASES INVOLVING PAYMENTS TO DECEASED INDIVIDUALS
In Fiscal Year (FY) 2002, OIG investigations resulted in the successful prosecution of
210 individuals who had fraudulently negotiated the checks of deceased Social Security
beneficiaries and recipients. In addition, investigative efforts related to deceased
individuals resulted in total program savings of $19,289,842 in FY 2002. Appendix D
contains the FY 2002 results of OIG investigations related to deceased beneficiaries
and recipients.

An example of the vulnerability posed by unreported deaths is a recent Ohio case in
which a woman was ordered to repay $123,310 of SSA funds that she had fraudulently
negotiated. The OIG Cleveland office opened an investigation into an alleged scheme
by a woman who continued to withdraw monthly benefits payable to her father, after his
death in September 1992. Over the course of several years, she withdrew $123,310 in
SSA funds from a joint account she had shared with the deceased. The woman did not
report her father’s death to either SSA or the bank. The woman, a long-time resident
of Georgia, went to Akron, Ohio nearly every month to make withdrawals. She was
confronted by OIG when she attempted to make a withdrawal and subsequently
admitted her guilt. She was sentenced in the United States District Court, Northern
District of Georgia, Atlanta Division, on July 2, 2002 for embezzling Social Security
benefits. Her sentence included the payment of restitution to SSA in the amount of
$123,310, as well as 5 months' incarceration and 3 years’ supervised probation.

STATUS OF RECOMMENDATIONS FROM RECENT OIG AUDIT
SSA agreed with six of the seven recommendations included in our audit, “Effectiveness
of SSA’s Death Termination Process” (A-09-02-22023). Specifically, SSA agreed to
obtain systems support for EDR and stated that implementation is scheduled for
September 2003. At that time, SSA expects to be able to process records from State
BVS agencies that implement EDR systems. However, full implementation with
90 percent of the States participating will not occur until 2005 or later. Consequently,
SSA also agreed to continue to work with NAPHSIS to develop and implement EDR
and stated that it had awarded contracts in September 2002 to New York City, South
Dakota, Montana, and Minnesota.

SSA agreed to issue a memorandum to remind employees to process all death alerts in
a timely manner and follow up on reclamation actions with the Department of the
Treasury to ensure that payments after death are recovered. SSA has since issued
both memorandums. SSA also agreed that debt collection tools should be used to the
largest extent possible. Furthermore, SSA initiated an Information Technology project
to facilitate the use of authorized debt collection tools available to the Agency.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)          8
However, SSA disagreed with our recommendation to evaluate the feasibility of systems
modifications to (1) simultaneously issue a “come-in” letter along with the death alert
and (2) automatically suspend benefits if there is no response to the “come-in” letter.
SSA stated that the corrective actions for other recommendations in the report
should address the concerns raised in this recommendation. Although eventual
implementation of EDR may provide a solution for the long term, we believe that SSA
should evaluate other alternatives for the short term. Therefore, we encourage SSA to
assess the feasibility of systems modifications to further automate the death reporting
process.

For a detailed description of the status of recommendations for the audit, “Effectiveness
of SSA’s Death Termination Process,” see Appendix E.

PRIOR RECOMMENDATIONS TO IMPROVE THE DMF
The OIG has issued 11 reports since 1999 that contain recommendations to improve
the reliability of the DMF. Among these recommendations were matching the DMF
against benefit records and reconciling the 1.3 million deaths recorded in SSA’s benefit
payment files that do not appear in the DMF. As part of its annual financial statement
audits, Pricewaterhouse Coopers also included recommendations to improve the
reliability of the DMF. SSA has generally agreed with these recommendations;
however, the Agency has deferred corrective actions on some recommendations due to
limited resources. For the status on prior recommendations related to improving the
DMF, see Appendix G.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)            9
                                                               Conclusion
SSA currently relies on relatives, friends, and funeral homes to report beneficiary deaths
in a timely manner. In fact, this occurs in about 90 percent of the cases. SSA matches
Federal and State death information against its payment records to identify those
deaths that are not reported by first parties. Generally, State death information is
considered by SSA to be very reliable, but its effectiveness is diminished the longer
SSA must wait for the information. State death data tends to take longer to process
than other sources of death information. However, SSA plans to implement a
nationwide system of electronic death registration. The eventual goal is for the Agency
to receive death information from States within 5 days of death and 24 hours of receipt
in the State BVS.

Although SSA has initiated actions to improve the accuracy of the information in the
DMF, we believe that continued efforts are needed to ensure its accuracy and reliability.
Currently, the accuracy of the DMF is compromised in two ways. First, the DMF does
not contain every deceased SSN holder. Second, the DMF contains individuals who
are not actually deceased. The DMF’s deficiencies need correcting to increase its
reliability, thus improving its usefulness to other Government agencies and the public.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)            10
                                      Appendices
Appendix A – Acronyms

Appendix B – Elapsed Time from Date of Death to Receipt of Death Alert

Appendix C – SSA’s Death Matching Process

Appendix D – Fraud Cases Involving Payments to Deceased Individuals During
             Fiscal Year 2002

Appendix E – Status of Recommendations for Audit of “Effectiveness of SSA’s
             Death Termination Process” (A-09-02-22023)

Appendix F – Reports Related to SSA’s Death Master File

Appendix G – Prior Recommendations to Improve SSA’s Death Master File

Appendix H – OIG Contacts and Staff Acknowledgments




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)
                                                                             Appendix A

Acronyms
Bendex          Beneficiary and Earnings Data Exchange

BVS             Bureau of Vital Statistics

CMS             Centers for Medicare and Medicaid Services

DACUS           Death Alert, Control, and Update System

DMF             Death Master File

EDR             Electronic Death Registration

FO              Field Office

FY              Fiscal Year

MBR             Master Beneficiary Record

NAPHSIS         National Association for Public Health Statistics and Information Systems

OIG             Office of the Inspector General

PC              Processing Center

POMS            Program Operations Manual System

SSA             Social Security Administration

SSI             Supplemental Security Income

SSN             Social Security Number

SSR             Supplemental Security Record




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)
                                                                                Appendix B

Elapsed Time from Date of Death to Receipt of
Death Alert1
                                                                                     Average
                                     Number of                 Total              Elapsed Days
              State                 Death Alerts           Elapsed Days             (rounded)
    Georgia                             592                   153,364                   259
    Illinois                              4                     1,013                   253
    New York                            219                    55,199                   252
    California                          265                    65,061                   246
    Pennsylvania                        401                    89,237                   223
    Nebraska                              4                       861                   215
    Ohio                                112                    21,669                   193
    Maine                                22                     4,073                   185
    District of Columbia                 91                    16,846                   185
    Indiana                              80                    14,511                   181
    Massachusetts                       180                    31,620                   176
    Kentucky                            123                    19,423                   158
    Michigan                            303                    47,707                   157
    Tennessee                           385                    58,274                   151
    Louisiana                           249                    37,602                   151
    Minnesota                            32                     4,806                   150
    Alaska                                5                       720                   144
    Washington                           87                    12,425                   143
    Utah                                 42                     5,882                   140
    South Carolina                      157                    20,541                   131
    North Carolina                      228                    28,578                   125
    Connecticut                         113                    13,955                   123
    Texas                               587                    71,373                   122
    Rhode Island                         48                     5,264                   110
    Vermont                              10                     1,050                   105
    Iowa                                 31                     3,217                   104
    New Mexico                           35                     3,590                   103

1
  Social Security Administration, Death Alert, Control, and Update System, July to December 1999. This
data is unaudited.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                         B-1
                                                                                Average
                                  Number of               Total              Elapsed Days
           State                 Death Alerts         Elapsed Days             (rounded)
 Virginia                            164                  15,480                    94
 Montana                              23                   1,817                    79
 Wyoming                               8                     624                    78
 Arizona                             116                   8,650                    75
 Florida                             758                  55,004                    73
 Maryland                            487                  33,799                    69
 Mississippi                         177                  11,734                    66
 Nevada                              116                   7,670                    66
 Alabama                             303                  19,801                    65
 New Jersey                          697                  43,759                    63
 Colorado                            188                  11,269                    60
 Wisconsin                           129                   7,722                    60
 Oregon                              111                   6,615                    60
 South Dakota                         17                     959                    56
 Oklahoma                            230                  12,367                    54
 Arkansas                            109                   5,579                    51
 Hawaii                               74                   3,760                    51
 Missouri                            337                  16,842                    50
 North Dakota                         16                     738                    46
 Idaho                                46                   1,765                    38
 Delaware                             74                   2,627                    36
 Puerto Rico                         583                  19,949                    34
 West Virginia                       240                   6,090                    25
 Kansas                              251                   4,894                    19
 New Hampshire                       333                   5,243                    16
 New York City                     6,742                  95,558                    14
 Total                            16,734               1,188,176                    71




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                  B-2
                                                                                             Appendix C

SSA’s Death Matching Process1
            Internal and external
              sources of death
                 information



        Death Alert, Control, and Update
               System (DACUS)




                                                       Unresolved
               Does name, date
                                                       exceptions
               of birth, etc. from
                                            No         generated -
               internal/external                                                        1
                                                       Death report              Stop
                 source match
                                                       not processed
               Numident and/or
                                                       any further.
                payment record
                    exactly?



                              Yes


                  Does death                              Benefits terminated
               information from                           and death
                                                 Yes      information posted
               internal/external                                                             Stop
              source agree with                           to the Numident
                                                          and Death Master
                 SSA payment
                                                          File.
                    record?


                              No




                     Is the
                                           Yes          To
                  beneficiary
                                                       page
                   receiving
                                                        C-2
                   benefits?



                                     If no benefits are paid or if the death pertains to a
                            No
                                     nonbeneficiary, the date of death is posted to the             Stop
                                     Numident and included in the Death Master File.




1
  For 2002, there were 110,286 death records that did not match Numident records because of
discrepancies in the name, Social Security number, date of birth, or gender. Although SSA does not
currently process these exceptions, the Agency will begin to process exceptions in September 2003.


SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                 C-1
                        From
                        page
                         C-1




                                                                       Does
                   Does payment                 Yes              payment record
                                                                                             No
                    record show                                  show DOD after                      Stop
                   Date of Death                                     DOD from
                      (DOD)?                                     internal/external
                                                                     source?



                   No                                                      Yes



                                     Death alert generated and
                                    sent to SSA field office (FO).



                                FO confirms whether beneficiary
                               is dead or alive and, if applicable,
                                  FO ascertains correct DOD.



                               Obtain current payment record(s)
                                     and Numident query




                                            Did the FO                               No
                                           determine the                                       To
                                          beneficiary was                                     page
                                               alive?                            DEAD          C-3


                                          Yes         ALIVE


                                     Ensure benefit payments
                                   continue. Remove erroneous
                                   DOD from payment record.



                                                                               Correction
                                                                               posted to
                                   Remove erroneous DOD from                   the Death          Stop
                                     DACUS and Numident                        Master File




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                  C-2
                                               From
                                               page
                                               C-2




                                     Beneficiary     Deceased




                                           Terminate benefit
                                       payments. Ensure correct
                                          DOD is on payment
                                      record(s) and Numident
                                                   record.




                                        Post death information to
                                         the Death Master File.




                                         Refer cases involving
                                       possible fraud to the Office
                                        of the Inspector General,
                                        Office of Investigations.




                                               Stop




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)   C-3
                                                                                                                             Appendix D

Fraud Cases Involving Payments to Deceased Individuals During
Fiscal Year 20021
                                               Scheduled                               Settlements                                  Program
         Action2         Convictions           Recoveries              Fines          and Judgments           Restitution           Savings
    Title II
    OASI                             168         $8,831,768               $12,136              $61,571          $5,752,907         $15,723,178
    Title II
    Disability                         18          1,193,088                   175                     0            489,955              2,016,055
    Title XVI
    Aged                               10             94,630                 6,900                6,180              38,313               520,668
    Title XVI
    Disability                         14            162,770                 5,200              19,130              137,710              1,029,941

    Total                            210        $10,282,256               $24,411              $86,881          $6,418,885         $19,289,842




1
    Social Security Administration (SSA), Office of the Inspector General, Allegation and Case Investigative System, Fiscal Year 2002.
2
  SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI), and Supplemental Security Income (SSI) programs
under titles II and XVI of the Social Security Act. The OASI and DI programs provides benefits to retired and disabled workers, including their
dependents and survivors. The SSI program provides benefits to financially needy individuals who are aged, blind, and/or disabled.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)
                                                                                                                       Appendix E

Status of Recommendations for Audit of “Effectiveness of SSA’s
Death Termination Process” (A-09-02-22023)1
                        OIG Recommendation                                                     SSA Corrective Action
    1.   Modify its automated systems to support Electronic Death          The Social Security Administration (SSA) agreed to obtain
         Registration (EDR), including the on-line verification of         systems support for EDR. The "back-end" planning and
         Social Security numbers, processing of verified and               analysis phase has already been completed. The "front-end"
         unverified State death reports, and termination of benefits       Internet Verification phase has also been completed. The
         upon receipt of verified State death reports.2                    requirements phase is currently underway. Full implementation
                                                                           is scheduled for September 2003, at which time SSA will accept
                                                                           EDR records for immediate termination. (Status provided
                                                                           September 2002.)

    2.   Encourage State bureau of vital statistics (BVS) agencies         SSA is working with the National Association for Public Health
         to develop and implement EDR systems.2                            Statistics and Information Systems (NAPHSIS) and State
                                                                           BVS agencies to develop and implement EDR systems. In
                                                                           September 2001, SSA awarded a contract to NAPHSIS to
                                                                           (1) develop a comprehensive educational plan for the various
                                                                           participants, (2) arrange marketing sessions with various
                                                                           Federal agencies that use death data, (3) serve as a consultant
                                                                           to States that are ready to implement EDR, and (4) serve as a
                                                                           technical advisor to States that are not ready to implement EDR.
                                                                           (Status provided September 2002.)




1
    Issued September 17, 2002.
2
    SSA initiated these projects before the recommendations were issued by the Office of the Inspector General.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                              E-1
                     OIG Recommendation                                                SSA Corrective Action
 3.   Work with other Federal and State agencies to obtain          SSA is working with the National Centers for Health Statistics to
      additional funding for EDR.                                   obtain sources of funding for EDR. SSA initiated the nationwide
                                                                    rollout of EDR by awarding contracts to the District of Columbia
                                                                    and New Hampshire in September 2001. SSA awarded four
                                                                    additional State contracts in September 2002. (Status provided
                                                                    September 2002.)

 4.   Issue a memorandum to reiterate that field offices            SSA issued a memorandum to remind its employees to process
      (FO) should process death alerts as expeditiously as          all death alerts in a timely manner. (Status provided September
      possible to minimize improper payments to deceased            2002.)
      beneficiaries.

 5.   Evaluate the feasibility of systems modifications to          SSA stated that the expansion of EDR and systems
      (1) simultaneously issue the “come-in” letter to the          modifications should address the concerns raised in this
      beneficiary when the death alert is sent to the FO, and       recommendation. SSA also stated that further study may be
      (2) automatically suspend benefits if the beneficiary does    necessary to determine the workload ramifications of automated
      not respond to the “come-in” letter.                          “come-in” letters. (Status provided September 2002.)

 6.   Issue a memorandum to reiterate that processing centers       SSA issued a memorandum to remind its employees to follow
      (PC) should follow up on the status of reclamation actions    up on reclamation actions with Treasury to ensure that
      with the Department of the Treasury (Treasury) to ensure      payments after death are recovered. (Status provided
      that payments after death are recovered.                      September 2002.)

 7.   Encourage PCs to maximize the use of debt collection          SSA agreed that debt collection tools should be used to the
      tools available to the Agency to recover payments after the   extent possible. In addition, SSA initiated an Information
      death of a beneficiary.                                       Technology project to facilitate the use of authorized debt
                                                                    collection tools available to the Agency. Scheduling for the
                                                                    project has not yet been completed. (Status provided
                                                                    September 2002.)




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                         E-2
                                                                                                      Appendix F

Reports Related to SSA’s Death Master File
The following reports can be accessed by using the OIG home page – www.ssa.gov/oig

·   “Effectiveness of SSA’s Death Termination Process” (A-09-02-22023) issued by the Social Security Administration
    (SSA)/Office of the Inspector General (OIG) in September 2002

·   “Early Alert: Disclosure of Personal Information on Representative Payees” (A-01-99-82008) issued by the Social
    Security Administration (SSA)/Office of the Inspector General (OIG) in January 1999

·   “The Social Security Administration’s Procedures to Identify Representative Payees Who Are Deceased”
    (A-01-98-61009) issued by SSA/OIG in September 1999

·   Pricewaterhouse Coopers, LLP (PwC) Management Letter on Recommendations to Improve Management Controls
    and Operations Resulting from the Fiscal Year (FY) 1999 Financial Statement Audit issued in November 1999

·   “Performance Measure Review: Summary of Pricewaterhouse Coopers, LLP Review of SSA’s Performance Data”
    (A-02-00-20024) issued by SSA/OIG in March 2000

·   “Improving the Usefulness of the Social Security Administration’s Death Master File” (A-09-98-61011) issued by
    SSA/OIG in July 2000

·   “Disclosure of Personal Beneficiary Information to the Public – Early Alert” issued by SSA/OIG in October 2000

·   “Old-Age, Survivors and Disability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries” (A-01-00-20043)
    issued by SSA/OIG in June 2001




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                            F-1
·    “Unresolved Death Alerts Over 120 Days Old” (A-09-00-10001) issued by SSA/OIG in August 20011

·    “Disclosure of Personal Beneficiary Information to the Public” (A-01-01-01018) issued by SSA/OIG in January 2002

·    “Controls Over the Social Security Administration’s Processing of Death Records from the Department of Veterans
     Affairs (VA)” (A-01-01-21038) issued by SSA/OIG in February 20022

·    “Old-Age, Survivors and Disability Insurance and Supplemental Security Income Payments to Deceased Beneficiaries
     and Recipients” (A-06-02-12012) issued by SSA/OIG in October 2002




1
 Includes findings and recommendations to improve the processing of death alerts and reliability of death data, which affects the accuracy of the
DMF.
2
    Ibidem.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                                    F-2
                                                                                                               Appendix G

Prior Recommendations to Improve SSA’s Death Master File
            Report                                 Findings                                     Recommendations
 “Early Alert: Disclosure of     OIG reported that 39 individuals, acting as       SSA should verify the death information for the
 Personal Information on         representative payees for beneficiaries, were     6,004 representative payees our match showed
 Representative Payees”          erroneously listed as deceased on SSA's           as deceased on the DMF, but currently serving
 (A-01-99-82008) issued          Death Master File (DMF); 22 of these              as representative payees for beneficiaries on
 by the Social Security          39 individuals had their personal information     the Master Beneficiary Record (MBR) and
 Administration (SSA)/Office     available to the public on the Internet. Their    Supplemental Security Record (SSR).
 of the Inspector General        personal information was available at no charge
 (OIG) in January 1999           and included information such as Social           [The Office of Systems conducted a match
                                 Security numbers (SSN), full names, dates of      among the DMF, Master Representative Payee
                                 birth, and (erroneous) dates of death.            File, MBR, and SSR to identify inconsistencies.
                                                                                   SSA reviewed and corrected the discrepancies
                                                                                   identified by the match. A similar match is
                                                                                   planned for January 2003. SSA issued
                                                                                   instructions to its field offices for addressing
                                                                                   these cases in February and March 2001.
                                                                                   (Status provided December 2002.)]

 “The Social Security            OIG reported that incorrect death                 SSA should identify and correct instances in
 Administration’s Procedures     information was recorded on the DMF and           which an MBR contains an erroneous date of
 to Identify Representative      MBR. Specifically, OIG estimated that             death for a representative payee.
 Payees Who Are Deceased”        465 representative payees were recorded as
 (A-01-98-61009) issued by       deceased on the DMF and/or the MBR even           [The Office of Systems conducted a match
 SSA/OIG in September 1999       though they were still alive.                     among the DMF, Master Representative Payee
                                                                                   File, MBR, and SSR to identify inconsistencies.
                                                                                   SSA reviewed and corrected the discrepancies
                                                                                   identified by the match. A similar match is
                                                                                   planned for January 2003. (Implemented
                                                                                   March 2002.)]



SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                        G-1
            Report                                 Findings                                     Recommendations
 Pricewaterhouse Coopers,        PwC reported that a comparison of the             SSA should design and implement data
 LLP (PwC) Management            MBR and Numident identified a projected           integrity checking programs for the full
 Letter on Recommendations       17,340 records where the individual was alive     production databases to identify the total
 to Improve Management           and currently receiving Old-Age, Survivors and    population of records with potential data
 Controls and Operations         Disability Insurance (OASDI) benefit payments     integrity problems.
 Resulting from the Fiscal       but was listed as deceased on the Numident.
 Year (FY) 1999 Financial        This was only slightly lower than the             [SSA stated that it had initiated a project where
 Statement Audit issued in       18,880 records PwC projected in 1998 and          death dates from Death Alert, Control, and
 November 1999                   higher than the 16,380 records projected in       Update System (DACUS) were being matched
                                 1997.                                             to those on the MBR and SSR to detect errors
                                                                                   and correct discrepancies. However, due to
                                 Additionally, PwC’s comparison between the        limited resources, proven MBR and SSR dates
                                 SSR and the Numident in 1999 identified a         have not been posted to the Numident. (Status
                                 projected 980 records where the individuals       provided May 2001.)]
                                 were alive and currently receiving Supplemental
                                 Security Income (SSI) payments but were listed
                                 as deceased on the Numident. This was
                                 also slightly different from the 1,320 records
                                 projected in 1998 and the 1,200 records
                                 projected in 1997.

                                 In 1997, PwC estimated 719,493 discrepancies
                                 between dates of death on the MBR and
                                 the Numident. Further, it estimated
                                 232,306 discrepancies between the SSR and
                                 the Numident. These estimates decreased in
                                 1998 after SSA took action to correct the data.
                                 However, PwC still found 2,625 discrepancies
                                 between the MBR and the Numident and
                                 2,274 discrepancies between the SSR and the
                                 Numident. These discrepancies decreased
                                 further in 1999 to 1,902 between the MBR and
                                 the Numident and 1,580 between the SSR and
                                 the Numident.



SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                        G-2
            Report                                 Findings                                     Recommendations
 “Performance Measure            PwC reported that its review of SSA’s             SSA should develop policies and procedures
 Review: Summary of              performance data identified that individuals      for the resolution of unmatched items in
 Pricewaterhouse Coopers,        who are alive and currently receiving OASDI       DACUS and establish a workgroup with primary
 LLP Review of SSA’s             and/or SSI benefits are listed as deceased on     responsibility for resolution.
 Performance Data”               the DMF.
 (A-02-00-20024) issued by                                                         [SSA formed a workgroup in March 2001.
 SSA/OIG in March 2000                                                             The workgroup prepared a report containing
                                                                                   recommendations for exception processing.
                                                                                   The Office of Income Security Programs
                                                                                   prepared this report. The Agency will begin
                                                                                   to process the workgroup recommendations
                                                                                   in September 2003. (Status provided
                                                                                   September 2002.)]

 “Improving the Usefulness       OIG reported that SSA’s master payment files      SSA should reconcile the 1.3 million deaths that
 of the Social Security          contained death information that had not been     were recorded on the MBR but not recorded on
 Administration’s Death Master   included in its DMF. OIG determined that about    the Numident and ensure that, in the future, all
 File” (A-09-98-61011) issued    1.3 million deaths remained unrecorded on the     deaths are included on the DMF.
 by SSA/OIG in July 2000         Numident. It also reported that the DMF did
                                 not identify which deaths had been sufficiently   SSA should annotate the DMF to identify
                                 verified by SSA as a basis for awarding or        which deaths have been sufficiently verified by
                                 terminating benefits.                             the Agency prior to awarding or terminating
                                                                                   benefits.

                                                                                   [The Office of Operations is responsible for
                                                                                   addressing unrecorded deaths. The Office
                                                                                   of Systems developed a quarterly match
                                                                                   operation, which generates alerts to the field
                                                                                   for investigation and processing. The actual
                                                                                   reconciliation between the DMF and MBR is
                                                                                   addressed by Operations personnel. Effective
                                                                                   September 2001, SSA annotated the DMF to
                                                                                   contain codes for proven deaths and verified
                                                                                   deaths.]



SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                       G-3
            Report                                   Findings                                     Recommendations
 “Disclosure of Personal          OIG informed SSA that auxiliary beneficiaries      There were no recommendations in this Early
 Beneficiary Information to the   were erroneously listed as deceased on the         Alert.
 Public – Early Alert” issued     DMF, and their personal information was
 by SSA/OIG in October 2000       available to the public on the Internet.

 “Old-Age, Survivors and          OIG reported that SSA can improve its current      SSA should periodically (at least annually)
 Disability Insurance             death matching process to ensure that OASDI        match the DMF against its auxiliary payment
 Benefits Paid to Deceased        benefits are terminated when death notices are     records to identify records in which a date of
 Auxiliary Beneficiaries”         received for auxiliary beneficiaries. OIG          death is posted on the DMF but for which
 (A-01-00-20043) issued by        estimated that 881 deceased auxiliaries            payment records show current benefit
 SSA/OIG in June 2001             received $31 million in OASDI benefits after       payments.
                                  their dates of death.
                                                                                     SSA should resolve the discrepancy between
                                  Additionally, OIG estimated that 4,152 auxiliary   the dates of death on the Numident and the
                                  beneficiaries receiving OASDI payments had         current payment status on the MBR for the
                                  dates of death recorded on the Numident even       2,721 records in our population that are not
                                  though the beneficiaries were actually alive.      under review by OIG’s Office of Investigations.

                                                                                     SSA should remind staff to follow procedures
                                                                                     when processing death alerts to ensure all
                                                                                     records requiring action are identified and
                                                                                     corrected.

                                                                                     [SSA agreed to periodically match the DMF
                                                                                     against its payment records. SSA completed its
                                                                                     review of the 2,721 cases in September 2001.
                                                                                     In addition, SSA issued a memorandum
                                                                                     reminding staff to follow its procedures. OIG
                                                                                     is currently conducting a follow-up review
                                                                                     and plans to issue a report in FY 2003.
                                                                                     (Implemented March 2002.)]




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                            G-4
              Report                                     Findings                                         Recommendations
    “Unresolved Death Alerts         OIG reported that SSA’s controls and                   SSA should monitor the DACUS 120-day aged
    Over 120 Days Old”               procedures were not effective to ensure that           alert report on a nationwide basis and develop
    (A-09-00-10001) issued by        the DACUS 120-day aged alert report is                 specific procedures, including time frames, for
    SSA/OIG in August 20011          reviewed and resolved in a timely and                  regional offices to process death alerts. In
                                     consistent manner.                                     addition, SSA should expedite implementation
                                                                                            of DACUS Release 3 to simplify the clearance
                                     OIG identified $782,099 of payments                    of death alerts, provide on-line management
                                     attributable to 206 deceased individuals               information, and reduce the number of error
                                     that could have been avoided had the death             conditions resulting in unproductive alerts.
                                     alerts been resolved within 30 days of their
                                     appearance on the DACUS 120-day aged alert             [SSA agreed to develop procedures for
                                     report. In addition, OIG performed a computer          processing and monitoring death alerts over
                                     match using death records from the State of            120 days old. However, SSA reported that it
                                     California and identified 72 individuals who           could not expedite the implementation of
                                     were deceased but continued to receive                 DACUS Release 3 due to limited resources.
                                     payments totaling $959,545 after their deaths.         (Status provided November 2001.)]

    “Payments Made to Selected       OIG reported several conditions that increased         SSA should resolve beneficiary date of death
    Representative Payees            the risk of misuse of payments made after a            discrepancies identified by OIG and develop
    after the Deaths of Social       beneficiary’s death. Specifically, OIG reported        and implement procedures for the timely and
    Security Beneficiaries”          that dates on death certificates and SSA’s             accurate recordation of dates of death.
    (A-13-01-21028) issued by        payment records did not always match.
    SSA/OIG in September 2001                                                               [SSA initiated action to begin correcting the
                                                                                            records containing date of death discrepancies
                                                                                            and agreed to review representative payee
                                                                                            procedures to prevent future occurrences
                                                                                            of similar problems. (Status provided
                                                                                            September 2002.)]




1
 Includes findings and recommendations to improve the processing of death alerts and reliability of death data, which affects the accuracy of the
DMF.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                                    G-5
              Report                                 Findings                                   Recommendations
    “Disclosure of Personal       OIG reported that SSA is releasing private        SSA should routinely match the DMF with the
    Beneficiary Information to    information, including SSNs, for individuals      Master Representative Payee File to identify
    the Public” (A-01-01-01018)   erroneously listed as deceased on its DMF.        representative payees managing beneficiaries’
    issued by SSA/OIG in                                                            funds after a date of death. Also, SSA should
    January 2002                  OIG estimated that 4,152 OASDI auxiliary          implement prior recommendations to address
                                  beneficiaries were erroneously listed as          erroneous dates of death on SSA’s systems.
                                  deceased in the June 1999 release of the DMF.
                                  Further, 4,077 of these 4,152 beneficiaries       [The Office of Systems conducted a match
                                  (98 percent) had their personal identifying       among the DMF, Master Representative Payee
                                  information (such as names, dates of birth, and   File, MBR, and SSR to identify inconsistencies
                                  SSNs) available to the public on the Internet.    that indicate a representative payee change
                                                                                    might be necessary. Cases identified in this
                                                                                    match were provided to field offices for
                                                                                    follow-up. SSA plans to conduct a similar
                                                                                    match in January 2003. Also, SSA provided
                                                                                    information regarding recent actions taken to
                                                                                    address many of the prior recommendations.
                                                                                    (Implemented January 2002.)]

    “Controls Over the Social     OIG reported that SSA made improper               SSA should routinely review its management
    Security Administration’s     payments to deceased beneficiaries which          information systems input and output reports to
    Processing of Death Records   could have been avoided if SSA had processed      ensure the VA death information is processed
    from the Department of        VA death information timely.                      completely. In addition, SSA should process
    Veterans Affairs (VA)”                                                          VA death information within a month of when it
    (A-01-01-21038) issued by     OIG estimated that about $467,725 in improper     is received to ensure payments to deceased
    SSA/OIG in February 20022     payments were made to 302 deceased OASDI          beneficiaries are terminated promptly.
                                  beneficiaries in the months between March and
                                  May 2001. In addition, OIG found that the         [SSA agreed to (1) review its reports to ensure
                                  death information provided by VA was not          the VA death information is processed correctly,
                                  always accurate.                                  and (2) process the VA death reports upon their
                                                                                    receipt. (Implemented March 2002.)]


2
    Ibidem.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                       G-6
            Report                                 Findings                                     Recommendations
 “Old-Age, Survivors and         OIG reported that SSA did not act to correct      SSA should ensure the data match for the
 Disability Insurance and        cases that had been identified as having a date   entire population is completed to identify
 Supplemental Security           of death discrepancy between the MBR or SSR       cases that need to be corrected and recover
 Income Payments to              and Numident records. Consequently, SSA           payments made after death. SSA should also
 Deceased Beneficiaries and      made payments to individuals after their death.   ensure the 71 alive individuals, whose records
 Recipients” (A-06-02-12012)     Also, private information for many living         were still listed in Internet death records, are
 issued by SSA/OIG in            individuals was inadvertently listed in death     removed from the DMF.
 October 2002                    records that were made available to the public.
                                                                                   In addition, SSA should determine whether the
                                                                                   remaining 71 unresolved cases were alive, and,
                                                                                   if so, remove them from the DMF and recover
                                                                                   payments made after death. SSA should also
                                                                                   establish a schedule (such as quarterly) to
                                                                                   conduct routine periodic data integrity matches
                                                                                   to identify date of death discrepancies for
                                                                                   review and correction.

                                                                                   [SSA completed the data match in August 2002
                                                                                   and agreed to initiate corrective action on the
                                                                                   results of the match in September 2002. In
                                                                                   addition, SSA agreed to review the 71 cases
                                                                                   against the DMF to determine if they have been
                                                                                   removed and submitted the 71 unresolved
                                                                                   cases to the appropriate office for review,
                                                                                   which should be completed in October 2002.
                                                                                   Furthermore, SSA implemented an automated
                                                                                   utility to (1) perform a comparison of the
                                                                                   DMF against the MBR and SSR to detect
                                                                                   inconsistent death data, and (2) provide a
                                                                                   quarterly report that lists names and SSNs
                                                                                   requiring investigation. (Status provided
                                                                                   September 2002.)]




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)                                                        G-7
                                                                             Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Western Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments
In addition to those named above:

   Joseph I. Robleto, Senior Auditor

   Timothy E. Meinholz, Senior Auditor

   Rina A. Meushaw, Program Analyst, Policy, Planning and Technical Services

   Dawn J. Zgorski, Investigations Analyst, Manpower and Administration Division


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-03-23067.




SSA’s Efforts to Process Death Reports and Improve its DMF (A-09-03-23067)
                     Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
